S'

FILED
DEC 1 h 2020

No.

OFFICE OF THE CLERK
SUPREME COURT, U.S.

SUPREME COURT OF THE UNITED STATES

IN RE: JUAN GARCIA,
PETITTIONER,
V.
UNITED STATES OF AMERICA,
RESPONDENT.

PETITION FOR WRIT OF CERTIORARI
TO THE
SUPREME COURT OF THE UNITED STATES

PETITION FOR A WRIT OF CERTIORARI
' BRIEF OF PETITIONER'

JUAN GARCIA
PRO-SE

CJ x—/

k

Jjdan Garcia # 15130-062
Rivers Correctional Institution
P.O. Box 630
Winton, NC 27986

.—if -..

QUESTIONS PRESENTED

1. Was petitioner denied his Constitutional right to effective assistance of
counsel during his trial, that is guaranteed by the Sixth Amendment of the
United States Constitution.and his right to Compulsory Process?

2. Was the United States 'District Court for the Northern District of Oklahoma
was plainly wrong for denying petitioner's 28 U.S.C. § 2255 petition?

3. Was the United States Court of Appeals for the tenth Circuit plainly wrong
for denying petitioner'a certificate of appealability (GOA) ?

TABLE OF CONTENTS

QUESTIONS PRESENTED

TABLE OF CONTENTS

TABLE OF AUTHORITIES

CONSTITUTIONAL AND STATUTORY PROVISION INVOLVED
STATEMENT OF CASE

REASONS FOR GRANTING THE PETITION
CONCLUSION

SUPREME COURT OF THE UNITED STATES
No.

Juan Garcia,
Petitioner,
-vUnited States of America,
Respondent.

PETITION FOR WRIT OF CERTIORARI
Juan Garcia, herein after Petitioner, petition for a Writ of Certiorari to
review the Judgment of the United States Court of Appeals for the Tenth Circuit denying petitioner a certificate of appealability (COA) on October 21,
2020, in appeal no. 20-5071

0PI0NI0NS BELOW
The opinion from the United States District Court for the Northern District
of Oklahoma are (Appendix # A 1) and the opinion from, the United
States Court
of Appeals for the Tenth Circuit are (App.# B 1 - B 7)

JURISDICTION
The Judgment from the Court of Appeals for the Tenth Circuit was entered on
Oct. 21,2020, and is invoked pursuant to the Supreme Court Rule 10 (a)

1

TABLE OF AUTHORITIES
G&ses

Pages

Strickland v.Washington, 466 U.S. 668,694,104 S.Ct.2052,80 L.Ed.2d 674 (1984). (7)
Grant v. Trammell,727 F.3d 1006,1017 (10th Cir.2013)

(7) (12)

Smith v. Duckworth,824 F.3d 1233,1249 (10th Cir.2016)
Snow v.Sirmons,474 F.3d 693,731 n.42 (10th Cir.2007)

(10)

Henderson v. Sargent,926 F.2d 706,711 (8th Cir.1991),cert.denied,502 U.S.1050,
122 S.Ct. 915,116 L.Ed.2d; 815 (1992)...........................................................
United States v.Ashimi.932 F.2d 643,650 (7th Cir.1991)

(6)

Sanders v.Trickey,875 F.2d 205,210-11,(8th Cir.),cert.denied,493 U.S.898,
107 L.Ed.2d 201,110 S.Ct.252 (1989)

(6)

United States v.Schaflander,743 F.2d 714,721 (9th Cir.1984),cert.denied,470
U.S.1058,84 L.Ed.2d 832,105 S.Ct.1772 (1985)............... ........... .................

(6)

United States v. Gonzalez,596 F.3d 1228,1241 (10th Cir.2010)

(16)

• ••'•'••••••••••••a

Slack v.McDaniel,529 U.S.473.484v120 S.Ct.1595,146 L.Ed.2d 542 (2000).

i • • »

(16)

United States v.Moya.676 F.3d 1211,1214 (10th Cir.2012)

(16)

Mc^n v.Richardson,397 U;S.759.771 .n.14.25 L.Ed.2d 763,90 S.Ct. 1441 (1970).(14)
Ijiited States v,Ash,413 U.S.300.309.37 L.Ed.2d 619,93 S.Ct.2568 (1973)

(14)

United States v. Cronic.466 U.S.648,80 L.Ed.2d 657,104 S.Ct.2039 (1984)..(14)
2

CONSTITUTIONAL AND STATUTORY PROVISIONS

Federal Rule 28 U.S.C. § 2255 and 28 U.S.C. 2253 (c)(l)(B)(2)

Certificate of Appealability (COA)

The Sixth Amendment is amendment to the Constitution that gurantee a criminal
defendant the - right to subpoena witnesses and the right to counsel

The Compulsory Process is a formal command compelling the attendance of a wit­
ness in court

A Fair and :Impartial trial is a trial conducted in accordance with the require­
ments of the due process of law

Parties

Stephen Layman, trial attorney
Neal Hong,prosecuting attorney
Gregory K.Frizzell,United States District Judge

3

STATEMENT OF CASE

On January 26 2017 Tulsa police officers stopped two vehicles traveling from
Oklahoma City for traffic violations. The first vehicle a Chevrolet Cruze was
driven by Qustavo Flores and Joel Ulloa, a.passanger; contained approximately
three (3) pounds of methamphamine. The second vehicle - a Chverolet Silverado
truck driven by Roberto Dominguez, an undocument alien, and petitioner was the
passanger.

Base on interviews with Mr.Flores and Antonio Martinez; petitioner was identified
as the supplier of the methamphetmine. Petitioner disputed that account and contests he was traveling to Tulsa to purchase a Dodge Viper vehicle.

On March 7,2017, petitioner, Dominguez,Ulloa and Martinez were indicted for
conspiracy to posses methamphetmine with intent to distribtue.

On March 20,2017 the government dismiss the indictment against Mr.Dominguez;
who was thereafter deported on April 13,2017.

Martinez and Ulloa entered into a plea agreement and Flores entered into a
pretrial diversion agreement. The government obtained a superseding indictment
against petitioner for possess with the intent to distribute 500 grams or
more of methamphetmine.

On July 18,2017 during a motion hearing petitioner's Attorney Stephen Laymen
moved to dismiss the indictment against petitioner, based on the government's
deportation of Mr.Roberto Dominguez.

4

STATEMENT OF CASE

On August 8,2017 the District court.denied the motion, . concluding that there
was no evidence, suggesting that the government had acted in bad faith, in deporting
Mr.Dominguez or that his deportation prejudice the defense.

Petitioner appeal, the District court's decision denying his motion to dismiss
the indictment in the Tenth Circuit Court of Appeals. On January 23,2019 the
Court of Appeals affirmed the district court's decision.

Petitioner appeal the Tenth Circuit Court of Appeals decision, to the Supreme
Court by petition for Writ of Certiorari. On May 28,2019 the Supreme Court
denied petitioner's petition for a writ of certiorari in no. 18-8998.

On February 3,2020 petitioner filed a 28 U.S.C. § 2255 petition in the District
Court for the Northern District of Oklahoma. The District Court denied petiti­
oner^ §2255 petition on June 29,2020.

On July 13,2020 petitioner filed a notice of appeal to the Tenth Circuit
Court of Appeals seeking.a certificate of appealability (C0A). The Court of
Appeals denied petitioner's request for a (COA) and dismiss this matter on
October 21,2020; in No.20-5071

REASONS FOR GRANTING THE PETITION

1. WAS PETITIONER DENIED HIS CONSTITUTION RIGHT TO EFFECTIVE ASSISTANCE OF
COUNSEL DURING HIS TRIAL; THAT IS GUARANTEED UNDER THE SIXTH AMENDMENT
OF THE UNITED STATES CONSTITUTION, AND HIS RIGHT TO COMPULSORY PROCESS?
5

REASONS FOR GRANTING THE PETITION

Petitioner assert that his Attorney Stephen Layman deprive him of effective
aasistance of counsel and compulsory process that is guaranteed under the
Sixth Amendment. Attorney Layman fail to interview petitioner's codefendant
Mr.Roberto Dominguez or Mr.Bryan Smith,the individual that, was selling petit*
ioner a car, proior to trial and Attorney Layman fail to issue a subpoena for
Mr.Dominguez and Mr.Simth to testify on petitioner's behalf at his trial.

To support petitioner's ineffective assistance of counsel claim, petitioner
have obtain an affidavit from Mr.Dominguez. Mr. Dominguez's affidavit is '
newly discovered evidence'. See United States v.Ashimi<932 F.2d 643,650 (7th Cir.
1991)(' to show ineffective assistance, evidence about testimony of putative
witness must generally be presented by witness . testimony, or affidavit');> see
Sanders v.Trickey,875 F.2d 205,210-11 (8th Cir.)('failure to provide affidavit
from witness regarding potential testimony precludes.finding of prejudice'),
cert.denied, 493 U.S.898,107 L.Ed.2d 201,110 S.Ct.252 (1989);United States v.
Schaflander,743 F.2d 714,721 (9th Cir.1984)('to warrant evidentiary hearing, i
movant must submit affidavit or sworn statement from witness or counsel),cert,
denied, 470 U.S. 1058,84 L.Ed.2d 832,105 S.Ct.1772 (1985)

LEGAL ARGUEMENT

The applicable standard: to prevail on a Sixth. Amendment claim of ineffective
assiatnce of counsel, a defendant must show both that(l) counsel" committed
serious errors in the light of prevailing professional norms such, that his
legal representation fell below an objective standard of reasonableness," and
(2) there is 'a reasonable probability tht, but for counsel's unprofessional

6

REASONS FOR GRANTING THE PETITION

errors, the result of the proceeding would have been different. See Grant v.
Trammell,727 F.3d 1006,1017 (10th Or.2013)(citing Strickland,v. Washington.466
U.S. 668,694,104 S.Ct. 2052,80 L.Ed.2d 674 (1984))

Base upon the transcripts, the affidavit from Mr.Dominguez, and other supportive,
findings petitioner's allegation that Attorney Layman fail to investigate the
circumstances surrounding his defense that, he was traveling to Tulsa to purchase
a Dodge viper car. Attorney'Layman fail to interview two material witnesses,Mr,
Dominguez and Mr.Smith, and also Attorney Layman fail to subpoena both of those
witnesses to testify at petitioner's trial in his defense, deprive petitioner
of his Sixth Amendment right to. effective assistance of counsel and compulsory
process, and the right to present a complete defense.

On August 21,2017; the initial day of petitioner's jury trial, the prosecuting
Attorney Mr.neal Hong presented his case to the jury by mentioning" Mr.Gustavo
Flores and his friend,Joel Ulloa, got into a car; a green Chevrolet Cruze and
then petitioner told them to meet him, at a Phillips 66 gas station in Oklahoma
City. Mr.Flores drove to the gas station and met petitioner, petitioner told
him that he would.be in a blue Chevy truck. When Flores got there he got. into
the back of the Chevy truck.and was the passengerodf thetruck^waspetitioner- I'm sorry— the fornt passenger -seat— petitioner sat in there, and in the
iver s seat he saw an individual that he didi not know and that was later
indientified as Mr.Dominguez. Petitioner then pointed to the box, Flores then
took it to his car, and drove off." See Doc.#

at pg.ll.

Attorney Layman fail to investigate the circunstances surrounding petitioner's

7

REASONS FOR GRANTING THE PETITION

case intirely, a thorough investigation would have allow Attorney Layman to
dismantle the Prosecutor Mr Hong's case.

Thg fact that Mr.Hong's whole case.was relied on Martinez and Flores, testimony
against, petitioner, Attorney Layman should have dismantle Mr.Hong's case by
attacking the credibility of Mr.Martinez's and Mr.Flores's testimony.

Attorney Layman should have brought to the jury attention that Martinez.and
Flores are cousins; who scheme and plotted against petitioner to get out of
their mess that started.out with the. 'Martinez, Organization that Martinez
and Flores is part of,Martinez was the DEA's main target; not petitioner.

A few months later Martinez entered a cooperation plea agreement.of eleven (11)
months imprisonment to testify against petitioner, and Flores also entered a
cooperation plea agreement only getting probation to testify against petitioner.

Petitioner was confronted with witnesses called by Mr.Hong, Martinez and Flores,
but was denied his Sixth Amendment right to have compulsory process for obtaining
Mr.Dominguez and, Mr.Smith in his favor who would have contradict Mr.Hong's wit­
nesses account.

Attorney Layman had a constitutional duty to assist petitioner in preparing and
presenting a complete defense before the court or jury according to Strickland.
466 U.S. at 668" the Sixth and Fourteenth Amendments guarantee a person accuse
of a crime the right to the aid of a lawyer in presenting his defense. It has
long been settled that' the right to counsel is the right to the effective assi8

REASONS FOR GRANTING THE,PETITION

stance of counsel.'" Id at 707.

Mr.Dominguez's testimony was relevant to,petitioner's defense,that' he was not
the supplier of the methamphetamine, and that he was going to Tulsa Oklahoma
only to purchase a Dodge, Viper vehicle, becasue Mr .Dominguez, was the owner of
the Chevy Silverado truck petitioner was riding in,;he knew who the methamphe­
tamine belongs to, and he was the only person in the.Silverado truck with peti­
tioner on January 26,2017; when petitioner was arrested.

On July 11,2017; during a pretrial conference,see Appendix # , ; the Court,
Judge Frizzell, inquire the Prosecutor Mr.Hong and Attronet Layman about
issues as to whether petitioner was the owner of the Silverado truck.Id at
5.

On August 21,2017; during petitioner's jury trial; Mr.Hong tried to attribute
to the jury that cell phones that was found inside the center console of the
Silverado truck,was used to communicate with Martinez and Flores belongs to
petitioner.

Attorney Layman should have interviewed Mr.Dominguez the moment Mr.Hong dismiss
charges against him because Domingues's testimony would have exonerate petit­
ioner of being Martinez and Flores durg supplier. Attorney, Layman's failure to
interview Dominguez or subpoena him to testify at petitioner's trial was a
unreasonable decision.
Also, Dominguez's testimony would have bolster petitioner's defense that he

9

REASONS FOR GRANTING THE PETITION

was traveling to Tills a to purchace a Dodge Viper vehicle. Dominguez's declaration
in his affidavit demonstrate his willingness to testify on petitioner's behalf.
See Mr.Dominguez's affidavit

Attorney Layman should have interviewed Mr.Bryan Smith, the owner of the vehicle
petitioner was going to purchase and subpoena him to testify at petitioner's
trial to allow the jury to make a reasonable doubt decision why petitioner
was going to TXilsa.

In Snow v.Sirmons,474 F.3d 693,731 n.42 (10th Cir.2007) held that" In the specfic
context of an uncalled witness, appellant must show' that the testimony of an
uncalled witness would have been favorable' and that the witness would have
testified at trial."'

Petitioner demonstrate explicitly above that Mr.Dominguez's and Mr.Smith's testi­
mony was favorable to his defense, and was not merely cumulative.

Mr.Dominguez and Mr.Smith would have testified at petitioner's trial, had
Attorney Layman subpoena them to come to court on petitioner's behalf.

Mr.Dominguez's affidavit is proof that he would ahve testified on petitioner's
behalf at his, trial, had Attroney Layman subpoena him.

it is evidence that Mr.Smith would have testified at petitioner's trial, but
for Attorney Layman's unprofessional errors...as follow,see August 23,2017
trial transcript.

10

REASONS FOR GRANTING THE PETITION

On August 23,2017; during petitioner's jury trial, Attorney Layman.announce
that" I wanted to alert the court and counsel to developments with the final I.
witness that the defense might be expected to call,. Mr.Bryan Smith. Last night
after I got out of the jail about ,8:00p.m., I was contacted, by Mr.Smith person­
ally. He is, in Kansas City today on business. He related to me that having
recveived the subpoena in the morning it didn't-— he faulted.my investigator
for not making clear the seriousness of the federal subpoena."' Id at 344

Mr.Hong stated" I don't understand why this subpoena, you know, went out so
late in the first place." Id at 346

The court" But I don't want the delay in seeking the,—and I'll say 'undue
delay'— in seeking the subpoena and subpoenaing Mr.Smith on the second day
of trial when it appears that he was scheduled to go to Kansas City on busi­
ness, and then counsel for the defendant wants to continue the trial unneces­
sarily until Thursday when it would otherwise be completed on Wednesday after­
noon. So the problem is, I see a big fat § 2255 coming to be, laid in my lap if
I don't try to rectify Mr.Layman's belatedness."Id at 389

A competent attorney would have assist petitioner in obtaining favorable wit­
nesses in his defense and subpoena them to testify before the court and jury
according to Strickland,466 U.S. at 694, without Mr.Dominguez's and Mr.Smith's
testimony heard before the district court ot the jury that convicted petitioner;
they had no reason to question the inference the Prosecutor,Mr.Hong, drew from
its circumstantial case.

11

REASONS FOR GRANTING THE PETITION

The evidence Mr.Hong presented before the district court, and the jury that con­
victed petitioner was questionable,but when petitioner defending hisself,with­
out the effective assistance of Attorney. Layman's skills.and knowledge;can not
be characterized as harmless error.

The benchmark for judging any claim of ineffective assistance of counsel must
be whether counsel's conduct.so undermine the proper functioning of the adver­
sarial process hat the trial cannot be.relied on as haying produced.a just re­
sult... according to ther meanings, of Strickland,466 U.S. at 686.

Mr .Dominguez' s -and Mr. Smith's testimony together would have made a point
essential to petitioner's defense that the drugs was not his and he was only
going to Tulsa to purchase a vehicle, and had Attorney Layman subpoena .and called
both of those witnesses to testify on petitioner's behalf, there is a reasonable
probability that, the jury would have had reasonable doubt about the prosecutor's
theroy of petitioner's guilt as a methamphetamine supplier.

There is a reasonable probability that, had Attorney. Layman investigate (petiti­
oner's account that' he was traveling to Tulsa -to purchase; a car;'1 Attorney
(Layman, would have interviewed Dominguez and obtain his testimony before he
was deported,. Attorney Layman would have interviewed Mr.Smith and obtain his
testimony before, trial,. Attorney Layman would have subpoena both witnesses
Dominguez and Smith to testify at petitioner's trial, petitioner would not
have been deprive effective assistance of counsel and. compulsory process
and also would have had a fair trial by Calling available witnesses on his
behalf .Grant v. Trammell, 727 F.3d 1006.

12

REASONS FOR GRANTING THE PETITION

2 .WAS THE UNITED STATES DISTRICT COURT FOR THE NORTHERN DISTRICT OF OKLAHOMA
WAS PLAINLY WRONG FOR DENYING PETITIONER'S 28 U.S.C. § 2255 PETITION?

The district court Judge,Gregory K.Frizzell, was plainly wrong for denying
petitioner's 28 U.S.C. § 2255 petition on June 29,2020; without conducting an
evidentiary hearing and claimimg petitioner fail to show prejudice pursuant to
Strickland,466 U.S. 668;second prong standard.

Petitioner had demonstrate sufficient prejudice, cause by his Attorney Layman's
fail to call two favorable witnesses, Mr.Dominguez and Mr.Smith; to testify at
his trial on his behalf,was prejudice to him because he.was denied effective
assistance of counsel, compulsory process under the Sixth Amendment of the
Constitution ,and also, a fair and impartial trial.

Petitioner had demonstrate prejudice because an accused's right, to be represented
by counsel is a fundamental component of the criminal justice system. Lawyers
in criminal cases' are neccessities, not luxuries.' Their presence is essential
because they are the means through which the other rights of the person on trial
are secured. Without counsel, the right to a trial itself would be'of little
avail,' as the Supreme Court has recognized repeatedly.

Of all the rights that an accused person as, the right to be represented by
counsel is by far the most pervasive for it affects petitioner's ability to
assert any other rights he may have.

The special value of the right to the assistance of counsel explains why it

13

REASONS FOR GRANTING THE PETITION

has long been recognized that the. right to counsel is the right to effective
assiatnce of counsel.McMann v. Richardson,397 U.S.759,771,n.l4,25 L.Ed.2d 763,90
S.Ct.1441 (1970) The text of the Sixth Amendment itself suggests as much. The
Amendment requires not merely the provision of counsel to the accused,but '
Assistance', which is to be 'for his defense.' Thus,the core purpose of the
counsel guarantee was to assure 'Assistance' at trial,when the accused was
confronted with both the intricacies of the law and the advocacy of the public
prosecutor.United States v.Ash,413 U.S.300,309,37 L.Ed.2d 619,93 S.Ct.2568(19
73) If no actual "Assiatnce for the accuseds defense is provided', then the
constitutional guarantee has been violated.

Petitioner's trial Attorney Layman fail to subpoena Dominguez and Smith to
testify on petitioner's behalf at his trial pMys: a crucial role in the adver­
sarial process embodied in the Sixth Amendment because Attorney Layman's skill
and knowledge was neccessary to afford petitioner the 'ample apportunity to
meet the case of the prosecution' to which petitioner in entitled.Strickland,
466 U.S.

at 685.

The adversarial process protected by the Sixth Amendment requires that the accused
have counsel acting in the role of an advocate.United States v. Cronic,466 U.S
648,80 L.Ed.2d 657,104 S.Ct.2039(1984) The right to the effective assistance of
counsel is thus the right of the accused to require the prosecution's case to
survive the crucible of meaningful adversarial testing.. When a true adversarial
criminal trial has been conducted- even if defense counsel may by the Sixth
Amendment has occurred. But if the process loses its character as a.confronta­
tion between adversarial, the constitutional guarantee’is violated.

14

REASONS FOR GRANTING THE PETITION

The district court did not make a reasonable decision that Mr.Dominguez and
Mr.Smith testimony would have change the outcome of petitioner's trial; without
providing petitioner an effective aasistance of counsel that would have subpoena
those witnesses to come before the court to testify under oath, to make a reas­
onable determination whether those .witnesses testimony would have made a reason­
able juror raise a reasonable doubt about petitioner's guilt

• • t •

was not considered

according to the law.

The Sixth Amendment of the United States Constitution guaranteed petitioner
the right to effective 'assistance'rdf'counsel and the right to call witnesses
in his defense under compulsory process, petitioner was denied both of those
Constitution rights.

The district court fail to acknowledge that Attorney Layman fail to'assist'
petitioner in obtaining two favorable witnesses to appear before the district
the district court to testify, at his trial;in petitioner's defense....was the
prejudice result.

3. WAS THE UNITED STATES COURT OF APPEALS FOR THE TENTH CIRCUIT PLAINLY WRONG
FOR DENYING PETITIONER A CERTIFICATE OF APPEALABILITY (GOA)?

The Court of Appeals for the Tenth Circuit was plainly wrong for denying petit­
ioner a (COA) and dismissing his 28 U.S.C. § 2255 petition on October 21,2020.

Petitioner may not appeal the district court's denial of his § 2255 application
: tu

15

REASONS FOR GRANTING THE PETITION

witirut a.((EB) 28 U.S.C. § 2253 (c)(1)(B);. sge United States v.Gonzalez,596 F. 3d 1228,
1241 (10th Cir.2010). To obtain a (COA), petitioner must make' a substantial
showing of the denial of a constitutional right,,'28;UiS.C. § 2253 (c)(2),and
'that reasonable, jurists could debate whether • • • the petition should have been
resolved in a different manner or that the issues presented were adequate to
deserve encouragement to proceed further.'Slackv.McDaniel,529 U.S.473,484,120
S.Ct.1595,146 L.Ed.2d 542 (2000).

Petitioner has demonstrate explicitly in question presented # 1 that he was
denied effective assistance .of counsel and.compulsory process, are two constitutional rights that was guaranteed under the Sixth Amendment.

Ihe Court of Appeals should have remanded petitioner's case matter back to the
district court for an evidentiary hearing, so that reasonable jurists could debate
whether Attorney Layman denied petitioner compulsory process and effective
assistance of counsel for failing to subpoena Mr.Dominguez and Mr.Smith two
favorable witnesses that would have testified at petitioner's trial in his
defense,had Attorney Layman subpoena them.United States v.Moya,676 F.3d 1211.1214
(10th Cir.2012).

Those same reasonable jurists would have found that the distirct court s conelusion that, petitioner fail to establish Attorney Layman's performance was
prejudice;plainly wrong and that the.issues petitioner presented was adequate
to deserve encouragement to proceed further because petitioner's Sixth Amendment
Constitutional rights to effective assistance of counsel and compulsory process
was violated.

16

“I

REASONS FOR GRANTING THE PETITION

Had Attroney Layman put a halt on Mr.Dominguez's deportation and,subpoena him
and Mr.Smith at an appropriate .time,petitioner would not, have been denied
compulsory process or effective assistance of counsel, petitioner would have
had a fair trial by calling two favorable witnesses in his defense.

CONCLUSION
The district court.fail to acknowledge petitioner was denied effective
of counsel during his trial and the

'assistance'
right to have favorable witnesses called to

testified on his behalf;was a violation of his Sixth Amendment Constitutional
rights and was sufficient prejudice for petitioner to obtain relief.
Also, the Court of Appeals fail

to acknowledge that petitioner was denied his
Sixth Amendment rights and that the issues he presented was adequate to deserve
encouragement to proceed further because petitioner's Sixth.Amendment Constitutional rights to effective assistance of counsel and compulsory process
was
violated,yet petitioner should have been granted a (COA).

Therefore,petitioner pray that this Court grant this writ of certiorari.

Juan Garcia # 15130-062

17

